                                                   NATIONAL
                                                    OFFICE OF SCIENCE
                                                              INSPECTOR
                                                                      FOUNDATION
                                                                        GENERAL

   .                                                  OFFICE OF INVESTIGATIONS

  $@-
   4
    0
       ON
                                             CLOSEOUT MEMORANDUM

 Case Number: 1-04070026                                                                      Page 1 of 1



          On 23 July 2004, OIG Office of Investigations received a referral from OIG Office of Audits as a
                                                                                                              \
          result of its audit work on NSF's Visiting Personnel. The Visiting Scientist Engineer and
          Educator (VSEE) program permits a scientist to stay at NSF for a term of one year with an option
          for a second year extension. The VSEE must take a leave of absence from hisher home
          institution to become a Federal employee during the appointment. The agency pays the VSEE's
          salary and expenses based on a "Compensation Certification" form completed by someo'ne at
          hisher home institution.

          The audit revealed inconsistencies in a VSEE's (subject)' salary certification. The auditor also
          questioned the authenticity of the compensation certification form received from the institution2
          with which the subject claimed affiliation.

          01G requested the personnel file for review and contacted the institution of record to obkiin
          documentation to verify the subject's employment. It was determined that the subject held a
          "Graduate Faculty" appointment at the institution which permitted interaction with graduate
          students but was neither an actual position nor one which entitled him to compensation. This
          presented a problem for NSF because one of the criteria for eligibility is that the VSEE has to
          have a home institution to return to after the appointment has expired. Additionally, this position
          must carry compensation (hlVpart-time). Since the "Graduate Faculty" appointment held by the
          subject was not an actual position and did not require compensation, the subject was not eligible
          for the VSEE program during the second year extension.

          OIG interviewed NSF staff3 in the Human Resources Management Division responsible for
          processing both the initial VSEE appointment and the subsequent extension. OIG interviewed
          the university official4who completed the compensation certification for the subject (2ndyear
          extension). And finally, OIG interviewed the subject of the investigation to ascertain the events
          surrounding the second year appointment.

          After reviewing all information available and interviewing all personnel involved with the
                                                                                    9
          subject's appointment at NSF, it is clear that the subject gained financial1 from being in the
          VSEE program when he was not actually eligible; however, we cannot substantiate the intention
          of the subject to defraud NSF. Accordingly, this case is closed.
          1
              footnote redacted
          'footnote redacted
          3
              footnote redacted
              footnote redacted
              footnote redacted



NSF OIG Form 2 (1 1102)
